<html>
<title> - AN OVERVIEW OF THE BUDGET PROPOSALS FOR THE NATIONAL SCIENCE FOUNDATION AND NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY FOR FISCAL YEAR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


.                 AN OVERVIEW OF THE BUDGET PROPOSALS
                  FOR THE NATIONAL SCIENCE FOUNDATION
                  AND NATIONAL INSTITUTE OF STANDARDS
                  AND TECHNOLOGY FOR FISCAL YEAR 2016

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON RESEARCH & TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2015

                               __________

                           Serial No. 114-08

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                                __________
                                
                         U.S. GOVERNMENT PUBLISHING OFFICE
93-886PDF                    WASHINGTON : 2015                         
       
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-91800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6a0d1a052a091f191e020f061a4409050744">[email&#160;protected]</a>  
      

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.          ZOE LOFGREN, California
DANA ROHRABACHER, California         DANIEL LIPINSKI, Illinois
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL                    FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       SUZANNE BONAMICI, Oregon
MO BROOKS, Alabama                   ERIC SWALWELL, California
RANDY HULTGREN, Illinois             ALAN GRAYSON, Florida
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, TEXAS
RANDY K. WEBER, Texas                KATHERINE M. CLARK, Massachusetts
BILL JOHNSON, Ohio                   DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
MICHAEL T. MCCAUL, Texas             ELIZABETH H. ESTY, Connecticut
STEVEN M. PALAZZO, Mississippi       KATHERINE M. CLARK, Massachusetts
RANDY HULTGREN, Illinois             PAUL TONKO, New York
JOHN R. MOOLENAAR, Michigan          SUZANNE BONAMICI, Oregon
STEVE KNIGHT, California             ERIC SWALWELL, California
BRUCE WESTERMAN, Arkansas            EDDIE BERNICE JOHNSON, Texas
GARY PALMER, Alabama
LAMAR S. SMITH, Texas
                            C O N T E N T S

                           February 26, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barbara Comstock, Chairman, 
  Subcommittee on Research, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    10
    Written Statement............................................    11

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    14
    Written Statement............................................    15

                               Witnesses:

The Honorable France Cordova, Director, National Science 
  Foundation
    Oral Statement...............................................    16
    Written Statement............................................    19

The Honorable Daniel Arvizu, Chariman, National Science Board
    Oral Statement...............................................    31
    Written Statement............................................    33

Dr. Willie E. May, Acting Director, National Institute of 
  Standards and Technology
    Oral Statement...............................................    40
    Written Statement............................................    42

Discussion.......................................................    53

             Appendix I: Answers to Post-Hearing Questions

The Honorable France Cordova, Director, National Science 
  Foundation.....................................................    70

The Honorable Daniel Arvizu, Chariman, National Science Board....    84

Dr. Willie E. May, Acting Director, National Institute of 
  Standards and Technology.......................................    90

                  AN OVERVIEW OF THE BUDGET PROPOSALS
                  FOR THE NATIONAL SCIENCE FOUNDATION
                  AND NATIONAL INSTITUTE OF STANDARDS
                  AND TECHNOLOGY FOR FISCAL YEAR 2016

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2015

                  House of Representatives,
                    Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 11:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barbara 
Comstock [Chairwoman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Comstock. Good morning. The Subcommittee on 
Research and Technology will come to order. Excuse me.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing entitled ``An Overview of the 
Fiscal Year 2016 Budget Proposals for the National Science 
Foundation and National Institute of Standards and Technology 
for Fiscal Year 2016.''
    In front of you are packets containing the written 
testimony, biographies, and truth-in-testimony disclosures for 
today's witnesses.
    I now recognize myself for five minutes for an opening 
statement.
    I would first like to thank our witnesses for appearing 
today to discuss these budget requests: Dr. France Cordova, 
Director of the NSF, Dr. David--okay, I am going to get these 
names right here--Arvizu, Chairman of the National Science 
Board; and Dr. Willie May, Acting Director of NIST, who I want 
to acknowledge has been nominated by the President for the 
position of Under Secretary of Commerce for Standards and 
Technology.
    The Fiscal Year 2016 budget request for NSF totals $7.72 
billion, an increase of $379.34 million, 5.2 percent over the 
Fiscal Year 2015 enacted level. NSF is the primary source of 
federal funding for non-medical basic research. Basic research 
is about good jobs and a secure future. We want to be strong 
advocates for federal support of basic research that advances 
science in the national interest.
    But in this budget environment, just maintaining the 
current level of basic research support is a challenge. We have 
a constitutional obligation and a responsibility to ensure 
every dollar allocated for scientific research is spent as 
effectively and efficiently as possible.
    I look forward to hearing from our witnesses on how NSF 
plans to prioritize and manage the funding in Fiscal Year 2016.
    The Fiscal Year 2016 budget request for NIST totals $1.12 
billion, an increase of $255.8 million or almost 30 percent 
from the Fiscal Year 2015 enacted level.
    The Committee has a long bipartisan record of support for 
NIST and its contributions to research and development. Just 
last year the House passed a bipartisan reauthorization of the 
Institute. A 30 percent increase will be difficult to achieve 
and would require significant changes in other areas, so we can 
keep that in mind as we have today's discussion.
    The requested increases would be devoted in large part to 
bolster advanced manufacturing initiatives at NIST. $150 
million dollars is requested for the Network for Manufacturing 
Innovation, which I believe is set in law at $5 million 
annually. We are here today to learn more about the 
justification for this request, and I am appreciative of the 
opportunity to learn more about how Fiscal Year 2016 funds 
would be prioritized by NIST.
    I look forward to hearing from our witnesses today and 
learning how priorities and budgets are set by both 
organizations.
    [The prepared statement of Mrs. Comstock follows:]

                   Prepared Statement of Subcommittee
                      Chairwoman Barbara Comstock

    I would first like to thank our witnesses for appearing today to 
discuss these budget requests: Dr. France Cordova, Director of the NSF, 
Dr. David Arvizu, Chairman of the National Science Board, and Dr. 
Willie May, Acting Director of NIST, who I want to acknowledge has been 
nominated by the President for the position of Under Secretary of 
Commerce for Standards and Technology.
    The fiscal year 2016 budget request for NSF totals $7.72 billion, 
an increase of $379.34 million, 5.2 percent over the fiscal year 2015 
enacted level.
    NSF is the primary source of federal funding for non-medical basic 
research. Basic research is about good jobs and a secure future. We 
want to be strong advocates for federal support of basic research that 
advances science in the national interest.
    But in this budget environment, just maintaining the current level 
of basic research support is a big challenge. We have a constitutional 
obligation and a responsibility to ensure every dollar allocated for 
scientific research is spent as effectively and efficiently as 
possible.I look forward to hearing from our witnesses, Dr. Cordova and 
Dr. Arvizu, on how NSF plans to prioritize and manage funding in 
fiscalyear 2016.
    The fiscal year 2016 budget request for NIST totals $1.12 billion, 
an increase of $255.8 million or almost 30 percent from the fiscal year 
2015 enacted level.
    This Committee has a long, bipartisan record of support for NIST 
and its contributions to research and development. Just last year the 
House passed a bipartisan reauthorization of the Institute. But a 30 
percent increase will be difficult to achieve and would require 
significant changes in other areas. The requested increases would be 
devoted in large part to bolster advanced manufacturing initiatives at 
NIST, $150 million dollars is requested for the Network for 
Manufacturing Innovation, which I believe is set in law at $5 million 
annually.
    We are here today to learn more about the justification for this 
request, and I am appreciative of the opportunity to learn more about 
how fiscal year 2016 funds would be prioritized by NIST. I look forward 
to hearing from our witnesses and learning how priorities and budgets 
are set by both organizations.

    Chairwoman Comstock. I now recognize our Ranking Member, 
the gentleman from Illinois, Mr. Lipinski, for his opening 
statement.
    Mr. Lipinski. Thank you, Madam Chairwoman, and welcome to 
our distinguished panel here today.
    I am pleased we are having this hearing to review the 
Fiscal Year 2016 budget proposals for the National Science 
Foundation and the National Institute for--of Standards and 
Technology.
    There is a lot to cover when we discuss these two critical 
agencies, and I believe that we would have been better able to 
examine these budgets with two separate hearings but I am 
hopeful that we can give a thoughtful and thorough 
consideration here today.
    As many of you know, I have said many times from when I 
first came here ten years ago how NSF and the role that this 
Committee plays in overseeing NSF is one of the big reasons I 
wanted to serve on this Committee when I got to Congress, and I 
want to thank both NSF and NIST for the great work that you are 
doing.
    The National Science Foundation is the only agency in our 
government that supports fundamental research across all fields 
of science and engineering. NSF has always been the primary 
source of federal support in a variety of fields, including the 
social and economic sciences. As other agencies such as DARPA 
and NIH have increasingly shifted to a more mission-focused and 
translational research, NSF has become the primary source of 
support for many more fields.
    $7 billion sounds like a lot of money and of course it is. 
However, given the breadth and depth of our nation's scientific 
talent and their capacity to transform the world through 
scientific and technological breakthroughs, $7 billion still 
leaves a lot of excellent ideas on the cutting room floor. NSF 
is requesting a 5.2 percent increase in its budget for Fiscal 
Year 2016, which I believe is fully justified and I am going to 
strongly support.
    I would like to highlight a couple of items in the NSF 
request. I am pleased to see the increase for the very 
successful Innovation Corps, also known as the I-Corps program. 
If my newer colleagues are unfamiliar with I-Corps, I urge them 
to get a briefing from NSF.
    Being from Chicago, I am also interested in the INFEWS 
Initiative and the positive impacts research in that area could 
have on water quality in the Great Lakes.
    Today, we are also looking at the budget request for NIST, 
the most important, least-known agency in our government, which 
has a budget of less than $900 million. NIST has always been 
the world's premier measurement science and standards 
organization. In recent years, policymakers in Congress and the 
White House have called on NIST to take on leadership roles in 
an increasing number of critical areas, including 
cybersecurity, disaster resilience, forensic science, and 
advanced manufacturing. On the one hand it is a great 
compliment to NIST that we entrust them with these 
responsibilities and they continue to live up to our 
expectations. On the other hand, many of these responsibilities 
have been making it difficult for the agency to carry out its 
mission.
    NIST is requesting a 30 percent increase but over a 
relatively small base. I fully support NIST's request in light 
of all the increased responsibilities.
    I hope that all my colleagues will join me in urging full 
funding for NIST laboratories and construction budget. NIST 
infrastructure is 40 to 50 years old and much of it is 
crumbling. As they face the same wave of retirements that many 
of our agencies face, NIST is struggling to attract top new 
talent. If we do not fully fund this agency, we may be 
compromising its ability to remain the world's leader in 
measurement science and standards development. This would be a 
heavy blow to our economic growth and security given the 
importance of NIST's work.
    Before I close, I want to say a few words about legislation 
I expect will come before this Committee soon in regards to 
reauthorizing both of these agencies. Last year, the agencies 
were not given the opportunity to testify on the reauthorizing 
legislation before we marked it up. I am sure there will be 
some questions from both sides today that will be relevant to 
any new reauthorization bill, but it is important to allow 
these agencies to testify again once legislation has been 
introduced. This will allow our Subcommittee and full Committee 
to better understand the impact of any proposals for 
consequential policy changes.
    I look forward to this morning's testimony and discussion 
and I yield back.
    [The prepared statement of Mr. Lipinski follows:]

                   Prepared Statement of Subcommittee
                Minority Ranking Member Daniel Lipinski

    Thank you Madam Chairwoman and welcome to our distinguished panel. 
I am pleased we are having this hearing to review the Fiscal Year 2016 
budget proposals for the National Science Foundation and the National 
Institute of Standards and Technology. There is a lot to cover when we 
discuss these two critical agencies and I believe that we would have 
been able to examine these budgets better with two separate hearings. 
But I am hopeful that we can give a thoughtful and thorough 
consideration here today.
    The National Science Foundation is the only agency in our 
government that supports fundamental research across all fields of 
science and engineering. NSF has always been the primary source of 
federal support in a variety of fields, including the social and 
economic sciences. As other agencies such as DARPA and NIH have 
increasingly shifted toward more mission-focused and translational 
research, NSF has become the primary source of support for many more 
fields. $7 billion sounds like a lot of money, and of course it is. 
However, given the breadth and depth of our nation's scientific talent, 
and their capacity to transform the world through scientific and 
technological breakthroughs, $7 billion still leaves a lot of excellent 
ideas on the cutting-room floor. NSF is requesting a 5.2 percent 
increase in its budget for FY 2016 which I believe is fully justified 
and I will strongly support.
    I would like to highlight a couple of the items in the NSF request. 
I am pleased to see the increase for the very successful Innovation 
Corps, aka the I-Corps program. If my newer colleagues are unfamiliar 
with I-Corps, I urge them to get a briefing from NSF. Being from 
Chicago, I'm also interested in the INFEWS initiative and the positive 
impacts research in that area could have on water quality in the Great 
Lakes.
    Today we are also looking at the budget request for NIST, the most 
important least-known agency in our government, which has a budget of 
less than $900 million. NIST has always been the world's premier 
measurement science and standards organization. In recent years, 
policymakers in Congress and the White House have called on NIST to 
take on leadership roles in an increasing number of critical areas, 
including cybersecurity, disaster resilience, forensic science, and 
advanced manufacturing. On the one hand, it is a great compliment to 
NIST that we entrust them with these responsibilities and they continue 
to live up to our expectations. On the other hand, many of these 
responsibilities have been assigned without needed increases in 
funding, making it difficult for the agency to carry out its mission. 
NIST is requesting a nearly 30 percent increase, but over a relatively 
small base. I fully support NIST's request in light of all the 
increased responsibilities.
    I hope that all of my colleagues will join me in urging full 
funding for NIST's laboratories and construction budget. NIST's 
infrastructure is 40-50 years old and much of it is crumbling. As they 
face the same wave of retirements that many of our agencies face, NIST 
is struggling to attract top new technical talent. If we do not fully 
fund this agency, we may be compromising its ability to remain the 
world's leader in measurement science and standards development. This 
would be a heavy blow to our economic growth and security given the 
importance of NIST's work.
    Before I close, I want to say a few words about legislation that I 
expect will come before this Committee soon in regard to reauthorizing 
both of these agencies. Last year, the agencies were not given the 
opportunity to testify on the reauthorizing legislation before we 
marked up it. I'm sure there will be some questions from both sides 
today that will be relevant to any new reauthorization bill, but it's 
important to allow these agencies to testify again once legislation has 
been introduced. This will allow our Subcommittee and the full 
Committee to better understand the impact of any proposals for 
consequential policy changes.
    I look forward to this morning's testimony and discussion, and I 
yield back.

    Chairwoman Comstock. Thank you, Mr. Lipinski.
    Now, Chairman Smith--I recognize Chairman Smith, our 
Chairman of the full Committee.
    Chairman Smith. Thank you, Madam Chair, and let me observe 
and state the obvious at the beginning that we have an 
excellent panel with us today and we look forward to hearing 
from them shortly.
    The National Science Foundation and the National Institute 
of Standards and Technology support fundamental scientific 
research that is critical to American innovation and 
competitiveness. Our challenge is to set funding priorities 
that ensure America remains first in the global marketplace of 
ideas and products, without misusing the American people's 
hard-earned tax dollars.
    For example, why does the Administration increase funding 
for the Social, Behavioral and Economic Science Directorate by 
over seven percent while proposing an average of less than four 
percent for the Biology, Computer Science, Engineering and 
Mathematical and Physical Science Directorates?
    But I do want to emphasize and mention and applaud the 
steps taken by NSF to improve transparency and accountability. 
NSF's new policy acknowledges the need for NSF to communicate 
clearly and in nontechnical terms when the agency describes the 
research projects it funds. The new policy also emphasizes that 
the title and abstract for each funded grant should act as the 
public justification for NSF funding. It should explain how the 
project serves the national interest and is consistent with the 
NSF mission, as set forth in the 1950 legislation that created 
the Foundation. And I understand Dr. Cordova presented this at 
the November National Science Board meeting and received 
positive comments.
    It appears the new NSF policy parallels a significant 
provision of the FIRST Act approved by this Committee last 
fall, a requirement that NSF publish a justification for each 
funded grant that sets forth the project's scientific merit and 
national interest. The reference to the 1950 original enabling 
legislation and its NSF mission statement is consistent with 
the FIRST Act, too.
    NIST does valuable, important work as well, which includes 
maintaining industrial and technical standards and managing 
cybersecurity guidelines for federal agencies. But the proposed 
30 percent increase in the NIST budget for next year is 
unrealistic.
    Although there are a number of areas proposed for very 
large increases, the $150 million for the National Network of 
Manufacturing Innovation program is of particular concern. Last 
year, with strong bipartisan support, this Committee, the full 
House, and the Senate approved H.R. 2996, the Revitalize 
American Manufacturing Innovation Act, or RAMI. This bill 
authorized about $5 million per year for NNMI from NIST with 
the bulk of the program funding to be transferred from the 
Office of Energy Efficiency and Renewable Energy budget at the 
Energy Department's Office of Science. I don't know why the 
Administration is ignoring the duly enacted RAMI Act.
    Other than that, I look forward to hearing from our 
witnesses today on the subject that I mentioned above and yield 
back.
    [The prepared statement of Mr. Smith follows:]

   Prepared Statement of Committee on Science, Space, and Technology
                          Chairman Lamar Smith

    Thank you Madam Chair, and thank you to Dr. C"rdova, Dr. Arvizu and 
Dr. May for being with us here today.
    The National Science Foundation (NSF) and the National Institute of 
Standards and Technology (NIST) support fundamental scientific research 
that is critical to American innovation and competitiveness. Our 
challenge is to set funding priorities that ensure America remains 
first in the global marketplace of ideas and products, without misusing 
the American people's hard-earned tax dollars.
    For example, why does the administration increase funding for the 
Social, Behavioral and Economic Science Directorate by over seven 
percent while proposing an average of less than four percent for the 
Biology, Computer science, Engineering and Mathematical and Physical 
science directorates?
    I do want to mention and applaud the steps taken by NSF to improve 
transparency and accountability. NSF's new policy acknowledges the need 
for NSF to communicate clearly and in non-technical terms when the 
agency describes the research projects it funds.
    The new policy also emphasizes that the title and abstract for each 
funded grant should act as the public justification for NSF funding. It 
should explain how the project serves the national interest and is 
consistent with the NSF mission, as set forth in the 1950 legislation 
that created the Foundation.
    I understand Dr. C"rdova presented this at the November National 
Science Board meeting and received positive comments.
    It appears the new NSF policy parallels a significant provision of 
the FIRST Act approved by this Committee last fall--a requirement that 
NSF publish a justification for each funded grant that sets forth the 
project's scientific merit and national interest. The reference to the 
1950 original enabling legislation and its NSF mission statement is 
consistent with the FIRST Act, too.
    NIST does valuable, important work as well, which includes 
maintaining industrial and technical standards and managing 
cybersecurity guidelines for federal agencies. But the proposed 30 
percent increase in the NIST budget for next year is unrealistic.
    Although there are a number of areas proposed for very large 
increases, the $150 million for the National Network of Manufacturing 
Innovation (NNMI) program is of particular concern. Last year, with 
strong bipartisan support, this Committee, the full House, and the 
Senate approved HR 2996, the Revitalize American Manufacturing 
Innovation Act (RAMI).
    This bill authorized about $5 million per year for NNMI from NIST 
with the bulk of the program funding to be transferred from the Office 
of Energy Efficiency and Renewable Energy budget at the Energy 
Department's Office of Science.
    I don't know why the administration is ignoring the duly enacted 
RAMI Act.
    I look forward to hearing from our witnesses today on the subjects 
I mentioned above.

    Chairwoman Comstock. Okay. Thank you, Mr. Smith.
    And now I recognize the Ranking Member of the full 
Committee for a statement.
    Ms. Johnson. Thank you very much, Madam Chairwoman, for 
holding this important hearing, and I welcome the National 
Science Foundation and the National Institute of Standards and 
Technology witnesses here. Both are agencies that are central 
to the federal role in advancing science, promoting innovation, 
and creating a more prosperous nation.
    I look forward to hearing from the distinguished witnesses 
before us this morning. I only wish they could each have had in 
their own hearing because there are so many important topics to 
discuss for each of the agencies.
    I am pleased with the budget request for both NSF and NIST. 
I hope Congress will have the wisdom to fully fund both 
requests. There are many worthy programs across the government 
and we cannot fund everything. However, I believe that funding 
science and innovation should be an easy choice, for this is 
about our future, and even more important, it is about our 
children's future.
    That said, there are a few programs in the budget request 
that I would like to highlight. First, I am pleased to see NIST 
and NSF's increased investments in engineered biology. Many of 
the experts believe that biology will be the driver of economic 
prosperity in the 21st century, as physics was in the 20th 
century. Mr. Sensenbrenner joined me in introducing the 
Engineering Biology Act of 2015, which would create a framework 
for coordinated federal initiative in engineering biology. I 
hope we have the opportunity to move the bill this Congress.
    Next, I am happy to see NIST leadership in the area of 
forensic science and standards. The partnership between NIST 
and the Department of Justice must continue to recognize NIST's 
critical role in developing technical standards for forensic 
evidence. The justice system must be just for all, including 
the wrongfully accused. I would be reintroducing my Forensic 
Science and Standards Act soon and I welcome my colleagues to 
cosponsor the legislation with me.
    Also, while public access is not addressed in the budget 
request directly, it is a timely issue. I am pleased to see 
that several agencies, including NIST, have released their 
public access plans for federally funded research, a process 
that this Committee started back in the year 2009. Dr. Cordova, 
I understand you will still be negotiating with OSTP on your 
plan and I encourage you to resolve that as soon as possible.
    Let me conclude with a few words about the debates in this 
Committee regarding our support for different fields of science 
and for merit review. We all have beliefs we would hold very 
strongly whether or not there is evidence to support them. Some 
of my colleagues believe very strongly that some fields of 
science are less valuable than other fields and that some 
grants are less worthy than other brands. Personally, I do not 
presume to have the expertise to make that determination. I 
trust the merit review process, and I trust NSF to make those 
decisions. The experts before us today will have an opportunity 
to educate us as to why we must invest in all STEM fields, and 
why it is so important to keep the merit review process free 
from political review. I just hope that all of my colleagues 
truly listen and consider what our witnesses have to say.
    I very much look forward to the testimony, and with that, 
yield back. Thank you.
    [The prepared statement of Ms. Johnson follows:]

   Prepared Statement of Committee on Science, Space, and Technology
                  Ranking Member Eddie Bernice Johnson

    Thank you, Madam Chairwoman for holding this important hearing. The 
National Science Foundation and the National Institute of Standards and 
Technology are both agencies that are central to the federal role in 
advancing science, promoting innovation, and creating a more prosperous 
nation. I look forward to hearing from the distinguished witnesses 
before us this morning. I only wish they could each have their own 
hearing because there are so many important topics to discuss for each 
agency.
    I am pleased with the budget requests for both NSF and NIST. I hope 
Congress will have the wisdom to fully fund both requests. There are 
many worthy programs across the government, and we cannot fund 
everything. However, I believe that funding science and innovation 
should be an easy choice. This is about our future, and even more 
important, it is about our children's future.
    That said, there are a few programs in the budget requests that I 
would like to highlight. First, I am pleased to see NIST's and NSF's 
increased investments in engineered biology. Many of the experts 
believe that biology will be the driver of economic prosperity in the 
21st Century as physics was in the 20th Century. Mr. Sensenbrenner 
joined me in introducing the Engineering Biology Act of 2015, which 
would create a framework for a coordinated federal initiative in 
engineering biology. I hope we have the opportunity to move the bill 
this Congress.
    Next, I am happy to see NIST's leadership in the area of forensic 
science and standards. The partnership between NIST and the Department 
of Justice must continue to recognize NIST's critical role in 
developing technical standards for forensic evidence. The justice 
system must be just for all, including the wrongfully accused. I will 
be reintroducing my Forensic Science and Standards Act soon, and I 
welcome my colleagues to cosponsor this legislation with me.
    Also, while public access is not addressed in the budget request 
directly, it is a timely issue. I am pleased to see that several 
agencies, including NIST, have released their public access plans for 
federally funded research, a process that this Committee started back 
in 2009. Dr. C"rdova, I understand you are still negotiating with OSTP 
on your plan. I encourage you to resolve that as soon as possible.
    Let me conclude with a few words about the debates in this 
Committee regarding our support for different fields of science and for 
merit-review. We all have beliefs we hold very strongly whether or not 
there is evidence to support them. Some of my colleagues believe very 
strongly that some fields of science are less valuable than other 
fields, and that some grants are less worthy than other grants. 
Personally, I do not presume to have the expertise to make that 
determination. I trust the merit-review process, and I trust NSF to 
make those decisions.
    The experts before us today will have an opportunity to educate us 
as to why we must invest in all STEM fields, and why it is so important 
to keep the merit-review process free from political review. I just 
hope that all of my colleagues truly listen and consider what they have 
to say.
    I very much look forward to the testimony and with that I yield 
back.

    Chairwoman Comstock. Thank you, Ms. Johnson.
    Now, if there are Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    At this time I would like to introduce our witnesses. Hon. 
France Cordova is the Director of the National Science 
Foundation; Hon. Dan Arvizu is the Chairman of the National 
Science Board; and Dr. Willie May is the Acting Director of the 
National Institute of Standards and Technology.
    In order to allow time for discussion, please limit your 
testimony to five minutes and your entire written statement 
will be made part of the record.
    I now recognize Dr. Cordova for five minutes to present her 
testimony.

           TESTIMONY OF THE HONORABLE FRANCE CORDOVA,

             DIRECTOR, NATIONAL SCIENCE FOUNDATION

    Dr. Cordova. Chairman Smith, Ranking Member Johnson, Madam 
Chairwoman, Ranking Member Lipinski, and Members, I am very 
pleased to be with you today to present the National Science 
Foundation's Fiscal Year 2016 budget request.
    I would like to begin my remarks with three short stories 
about breakthroughs in NSF-funded science in 2014. Dr. Danielle 
Bassett of the University of Pennsylvania was awarded a 
MacArthur Fellowship, often called the ``genius grant,'' for 
her NSF-sponsored work on how different regions of the brain 
interact. She uses MRI technology and computer algorithms in 
her research, which may ultimately lead to what she calls 
``personalized therapeutics for rehabilitation and treatment of 
brain injury and psychiatric disorders.'' Her work may have 
application to Alzheimer's, schizophrenia, autism, epilepsy, 
and Parkinson's disease.
    Dr. Perena Gouma, material science research at SUNY Stony 
Brook, has created a novel nanogrid that when activated by 
sunlight can break down oil from a spill. She was the first 
scientist to receive an I-Corps grant and has started a company 
based on patents from this original research.
    Dr. Jennifer Doudna of UC Berkeley was awarded a 
Breakthrough Prize by leading technology companies. Her 
inspiration, she says, was her father, a literature professor 
who introduced her to cryptograms. Today, she has decrypted 
bacterial immunity, and with that discovery enabled the 
development of a precision genome editing tool, which could be 
used to treat diseases like cancer and AIDS, as well as 
hereditary disorders. At a recent session where I joined her to 
talk about future breakthroughs, she spoke of her experiences 
with K through 12 students. There is a scientist in every 
child, she said.
    These young women scientists and their game-changing 
discoveries were all funded by NSF. They were all drawn into 
science by family, friends, or teachers at a young age. Their 
research is truly innovative and interdisciplinary and shows a 
commitment to the STEM workforce.
    NSF has a long history of funding research that leads to 
breakthroughs in science and engineering. These breakthroughs 
excite the next generation and generate promise for the future. 
NSF has funded 214 Nobel Prize winners, including the most 
recent winners, W.E. Moerner in chemistry and Jean Tirole in 
economics.
    This past year, the NSF-funded supercomputer called 
Stampede at UT Austin has been used to explore a new method of 
DNA sequencing, which could make getting one's genome 
affordable. The new telescope in Chile called ALMA produced an 
iconic image of a proto-solar system forming around a 
relatively nearby star in our galaxy. This telescope is managed 
by the National Radio Astronomy Observatory located in 
Virginia.
    In addition, the NSF-funded Blue Waters supercomputer at 
the University of Illinois Urbana-Champaign is being used by 
researchers from the Mayo Clinic to understand gene expression 
in the brain with an eye to better understanding Alzheimer's 
disease.
    How do these stories and examples inform NSF's future 
investments? In Fiscal Year 2016 NSF proposes to uphold the 
essential approach that it has pursued for more than 60 years, 
to invest in discovery research and education in science and 
engineering, and by doing so, to address complex challenges 
facing the Nation for our Nation.
    In Fiscal Year 2016 there are four NSF-wide investments 
that address issues of major scientific national and societal 
importance. The first focus is on understanding the brain and 
it will offer novel insights into how cognitive abilities 
develop and can be maintained and improved throughout people's 
lives. The second is focused on the discovery science needed to 
understand the complicated and interconnected food-energy-water 
nexus. The third area of emphasis in 2016 is risk and 
resilience. It focuses on the advances needed to address 
pressing challenges associated with extreme events and how we 
can be prepared for them. The fourth is to develop an 
integrated national effort to increase the participation of 
young people who have been traditionally underserved and/or 
underrepresented in the STEM enterprise.
    What we are presenting today is therefore a robust 
investment in discovery. The total budget request is for $7.7 
billion, a 5.2 percent increase above the current level. This 
request builds on the foundation strength in funding 
breakthroughs and discoveries across a broad range of fields 
and in educating the STEM workforce.
    My written remarks provide additional detail on these 
investments.
    Most of all, it continues NSF's tradition of funding great 
ideas and growing great talent and ensures that NSF remains the 
place where discoveries began.
    Thank you very much, Madam Chairwoman and Members of the 
Subcommittee. Thank you for your support of the National 
Science Foundation. I look forward to working with you as 
together we advance science in the national interest.
    [The prepared statement of Dr. Cordova follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairwoman Comstock. Thank you.
    And I now recognize Dr. Arvizu for five minutes to present 
his testimony.

           TESTIMONY OF THE HONORABLE DANIEL ARVIZU,

                CHARIMAN, NATIONAL SCIENCE BOARD



    Dr. Arvizu. Thank you.
    Full Committee Chair, Chairman Smith, Ranking Member 
Johnson, Subcommittee Chairwoman Comstock, and Ranking Member 
Lipinski, and Members of the Subcommittee, I appreciate this 
opportunity to speak with you today in support of the National 
Science Foundation's fiscal 2016 budget request.
    I am Dan Arvizu, the Chairman of the Science Board, and in 
my day job I am the Director and the Chief Executive at the 
Department of Energy's National Renewable Energy Laboratory. 
The National Science Board, as you know, is the governing board 
of the National Science Foundation and an independent advisor 
to both Congress and the President.
    To begin, I would like to take a few moments to comment on 
my colleague here, the National Science Foundation Director 
France Cordova. Dr. Cordova has been at the agency's helm for 
almost a year now and the board is very appreciative and 
impressed by her leadership. From day one she has worked to 
ensure that the NSF supports and will be able to continue to 
support the strongest portfolio of discovery research in the 
world. She attends to both processes and to people embracing 
the Foundation's efforts to enhance transparency and 
accountability and strengthen its workforce. And Dr. Cordova is 
a terrific ambassador, as many of you know, for the agency 
connecting with other nations and scientists across all fields 
so that NSF can achieve its mission in advancing the frontiers 
of science.
    Chairwoman Comstock, this morning on behalf of my 24 
colleagues on the National Science Board, the science and 
engineering education communities which I represent as well, I 
would like to thank Members of the Subcommittee for their long-
standing support of the NSF. The board takes very seriously our 
shared responsibility to provide strong governance and proper 
stewardship of this critical taxpayer investment.
    As you know, NSF is the only agency that supports 
fundamental science and engineering research across all fields 
advancing the national interest by enabling scientific 
breakthroughs and the next generation of scientists and 
engineers. At the core, NSF is simple. We fund the best ideas, 
proposed and evaluated by scientists and engineers throughout 
the country, and we do this in fact relying on a lean, 
dedicated workforce that is supplemented by rotating experts 
and volunteers and volunteer reviewers. This approach has 
delivered enormous value to the U.S. taxpayer and become part 
of the well-known international gold standard, as we like to 
say, that the Foundation has always worked to both protect and 
improve.
    NSF discovery science exists at the core of much larger 
national science and technology ecosystem. The early-stage 
research that NSF drives lays the foundation for the 
application-oriented science pursued by other agencies and the 
technological innovations developed by our nation's businesses. 
For example, ten years ago NSF invested in research on how to 
design and build a secure cyber infrastructure for the power 
grid. The DOE's Office of Electricity Delivery and Energy 
Reliability and the Department of Homeland Security have 
carried this research forward, and thanks to these successive 
investments, today, the trustworthy cyber infrastructure for 
the power grid project is collaborating with national labs and 
utility sectors to improve the design security, safety, and 
resiliency of the U.S. power grid.
    We are always looking to improve our processes, and as a 
result, NSF, as you know, the agency has implemented new 
policies to begin and to better communicate how awards serve 
the national interest, how management of the NSF's large 
facilities is--are managed as well, and the Board and the 
Director planned a joint commission, an external independent 
review, to look at how NSF manages its cooperative agreements 
and to explore areas where they might make improvements to our 
procedures and processes.
    The National Science Foundation's 2016 budget request 
reflects a strategic commitment to support the best basic 
research, economic growth, job creation through innovation, and 
a globally competitive science and engineering workforce. The 
Board believes that the proposal reflects the priorities set by 
the scientific community and a clear commitment to investments 
that will strengthen our nation over the long term.
    I particularly ask for your support for funding of--full 
funding of the Agency Operations Award Management account. This 
request reflects the need to bring on additional staff to meet 
the requirements of the Digital Accountability and Transparency 
Act, cost effectively supporting high-quality, transparent 
federal spending information.
    Like all Americans, the research community must make tough 
choices and set a priority, a challenge that my colleagues and 
I, along with the Director, have embraced. Even in times of 
severe budget constraints, the Board believes that the 
investment in our science and technology capabilities, 
including our S&E workforce are essential to our Nation's long-
term prosperity and security.
    Our researcherships, observatories have led to 
revolutionary technologies, Nobel prizes, and even new states 
of matter, accomplishments that are a result of 65 years of a 
partnership among scientists, universities, NSF, and Congress.
    Thank you for your leadership and for this opportunity to 
testify and I look forward to your questions.
    [The prepared statement of Dr. Arvizu follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   
        
    Chairwoman Comstock. Thank you. And I now recognize Dr. May 
for five minutes to present his testimony.

                TESTIMONY OF DR. WILLIE E. MAY,

                        ACTING DIRECTOR,

         NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Dr. May. Thank you for the opportunity to appear before you 
today to present the President's Fiscal Year 2016 budget 
request for the National Institute of Standards and Technology, 
NIST, whose mission is to promote U.S. innovation and 
industrial competitiveness by advancing measurement science 
standards and technology in ways that enhance our economic 
security and improve our quality of life. The budget reflects 
NIST's important role in establishing and addressing the 
Nation's top scientific and technical challenges that will 
indeed foster the innovation that creates jobs and strengthens 
the U.S. economy.
    Specifically, the President has proposed a budget for NIST 
of $1.1 billion that we--as we have heard earlier. This is a 
$256 million increase in the 2015-enacted level. The budget 
will support U.S. manufacturers, aid our communities in 
recovering from disasters, and improve the ways that we connect 
to the world around us from online banking transactions to 
using technology to effectively and efficiently manage the 
smart grid to support the implementation of smart cities.
    The largest portion of the requested increase, $194.4 
million, focuses on U.S.-based manufacturing. This includes 
research in the NIST labs, support for the Hollings Marine--
Hollings Manufacturing Extension Partnership, MEP, and a new 
request for the National Network for Manufacturing Innovation, 
or NNMI.
    The NIST laboratories represent the core of our mission. 
Our researchers conduct world-class research that advances the 
Nation's technological infrastructure and helps U.S. companies 
continually improve their products and services. The basic 
research in the NIST laboratories has garnered five Nobel 
prizes over the last 18 years, a Kyoto Prize in material 
science, two National Medals of Science, and over 100 other 
national and international scientific awards and prizes.
    NIST conducts more applied research in the standards area 
in areas of national and global importance including but not 
limited to cybersecurity, advanced communications, advanced 
manufacturing, advanced materials, and strengthening the 
science that underpins the forensic data and information used 
to make decisions in our criminal justice system.
    The Fiscal Year 2016 budget request for--on Standards and 
Technology Research Services account is for $754.7 million. 
This is an increase of $79.2 million over the 2015 budget, and 
this is to grow our capacity in advanced manufacturing, 
cybersecurity and privacy for our nation's growing digital 
economy and for the fundamental measurement science and 
technology that is critical to U.S. innovation and improved 
quality of life.
    The increase will also provide for continued operation of 
our world-class Center for Neutron Research and will strengthen 
our efforts to support the Nation's community disaster 
resilience programs.
    Madame Chairwoman, NIST Industrial Technology Services 
appropriations supports our External Partnership programs 
designed to enhance American innovation and global 
competitiveness through partnerships at the state and local 
level. For ITS account the Fiscal Year 2016 request is for $306 
million. That is a $167 million increase and we recognize that. 
$150 million of that would support the establishment of the 
NNMI that we have heard about envisioned to be a globally 
diverse set of regional hubs coordinated by NIST to accelerate 
the development and adoption of new cutting-edge manufacturing 
technologies.
    The major portion of this amount is to establish two 
manufacturing innovation institutes to address the advanced 
manufacturing needs identified by industry. The eight 
institutes that have been identified to date are focused on 
U.S. Government agency needs, namely those of the DOD and the 
DOE. The ITS report also supports an $11 million increase--$11 
million to increase the ability of our MEP centers to service 
small, rural, and young companies.
    Our construction budget request is for $59 million. It 
represents an $8.7 million over 2015. Simply put, the aging and 
deteriorating buildings and infrastructure on our two campuses 
are beginning to threaten our ability to accomplish our 
mission.
    Ms. Chairwoman, the NIST labs play a unique role in the 
Nation's research and technology development enterprise. We sit 
at the nexus of the science and industry conducting cutting-
edge world-class science and developing standards that will 
allow industry to innovate and compete successfully. Both our 
labs and our extramural programs are clearly focused on 
providing the tools to allow U.S. manufacturing to experience a 
renaissance of technological leadership.
    Thank you for inviting me to testify today and I will be 
happy to answer questions.
    [The prepared statement of Dr. May follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   
   
    
    Chairwoman Comstock. Thank you. And thank you to all of our 
witnesses. I appreciate having you here today and now we are 
going to have five minute question rounds. And I will recognize 
myself initially for a five minute round.
    Following up on really what all of you talked about in some 
regard, could you give us a little bit more detail on the role 
that private industry plays in terms of creating and retaining 
science and engineering jobs and how--versus the public and how 
the money that we are spending can then leverage that private 
money? I think you all spoke to that a little bit but if maybe 
we could detail that a little bit more and how can we ensure 
that we are targeting our resources into areas that will 
leverage and create these new 21st century jobs that we all are 
very committed to expanding?
    Dr. Cordova. I will be happy to start, Madam Chairwoman. So 
just two comments. One is that, as you know, NSF has a very 
strong STEM workforce investment, and we--especially at the 
undergraduate and graduate level but also in K through 12 and 
really the whole spectrum of training for science and 
engineering careers. In my experience as a university professor 
being very close to the students and close to their passion for 
getting a job and contributing to the economy and being happy 
was that business--private business was very, very interested 
in our students because of the skill sets that they got when 
they were at the university, and most of our students have the 
opportunity to participate because of the funding of places 
like NSF and NIST in science and engineering with--along with 
their faculty members. And this was just excellent training.
    Chairwoman Comstock. In terms of internships and things 
that were----
    Dr. Cordova. Absolutely. Internships for the summer and 
engineering programs. There are internship programs for a whole 
year. So that is one aspect of this investment.
    And the other is that NSF--I did a broad survey of the 
partnerships that our agency has with private industry, and we 
have over a couple of hundred partnerships, maybe even more 
than that across the whole spectrum of dollar funding that 
really leverage our federal investment with private funding. 
And sometimes that is on workforce and investment in students 
and university, say, centers, engineering centers, industry 
university research centers that we fund, and sometimes it is 
in the actual science and engineering programs themselves. So 
we are--I think we are very good partners. We have an emphasis 
this year in particular on accelerating the numbers and kinds 
of partnerships that we have with the private sector.
    Chairwoman Comstock. Thank you.
    Dr. Arvizu. If I may just add slightly to that, I will be 
brief. I mentioned the ecosystem of the Nation and how NSF 
supports fundamental research that ultimately finds its way 
into the marketplace. There is probably nothing better than a 
few examples----
    Chairwoman Comstock. Yes.
    Dr. Arvizu. --to describe kind of how that might occur and 
so I have got a couple that I think might be useful. I will 
just focus on one.
    NSF has sponsored fundamental research on synthetic 
chemistry and transforming positron emission tomography, PET 
imaging, which is an important new technique, and an NSF-funded 
chemist, Stephen DiMagno, discovered how to create some organic 
compounds rapidly and efficiently. After that, PI was 
recognized and went through the I-Corps program that NSF 
sponsors along with SBIR, which is special grants. That has 
resulted in ground-floor pharmaceuticals from Lincoln, 
Nebraska, a company that produces radio tags for this kind of 
imaging and they have recently signed an exclusive license with 
Massachusetts General Hospital, which will give rise to a whole 
suite of new diagnostic techniques in a competitive manner and 
allow there to be the fundamental work that was done to provide 
a great opportunity for an expansion of things that really I 
think offer great and wonderful applications in the 
marketplace.
    Chairwoman Comstock. Great. Very good.
    Dr. May. I think each of us is going to answer this a 
little different, so here is my spin on this.
    When I came to NIST 43 years ago we had 3,000 employees. 
We--actually we had 3,300. Today, with all of the new 
assignments and the growth in the organization, we have 3,000 
employees, less than we had then, but we have 3,500 associates. 
These are people who work on our campus almost on a daily basis 
that are not employees that we interact with. So we have 
changed our interaction platform considerably.
    We have associates from industry, from academia, from other 
government laboratories, some foreign laboratories. A large 
portion of those are with our students, postdocs and students 
who spend time on our campus. We are also gaining new 
capabilities that we need to carry out our mission and do some 
of the new activities that I heard many of you speak about 
through something called joint institutes or centers of 
excellence that we are establishing with the university sector.
    So as we are growing our program, addressing the new 
challenges that we are being asked by the Administration, the 
Congress, and industry to take on, we are not doing that by 
hiring more federal employees; we are doing more collaborations 
and using the talents in the university system and the private 
sector to work with us to deliver our mission.
    Chairwoman Comstock. Okay. Thank you.
    And I would ask any of you, if you have additional examples 
because those examples are always very helpful for us to really 
have the object lessons on how this is impacting, so thank you.
    And I did--my time is up but I did want to maybe for the 
record ask about regulatory and reporting burdens that might--
you know, we have heard that from the universities and 
researchers and any of those things that might limit your 
ability to target the resources to the best use, and if you 
would like to identify any of those for us for the record.
    So now I will recognize our Ranking Member Lipinski for his 
questions.
    Mr. Lipinski. Thank you. I want to start with Dr. Cordova, 
and I have a number of questions. Hopefully we can have a 
second round and maybe get through a couple here. But, Dr. 
Cordova, I know you have been actively engaged on improving 
transparency and accountability at NSF and I want to thank you 
for that. I want to join the Chairman in thanking you for that 
because all of us want to make sure that the research dollars 
are being spent in the best way possible.
    But I want to give you an opportunity to explain to the 
Members, especially new Members on the Committee, just what you 
are doing that is new for transparency and accountability.
    Dr. Cordova. Thank you, Member Lipinski.
    So we have been very engaged in enhancing our transparency 
and accountability processes since I came 11 months ago to the 
agency, and the first thing I want to do is just thank Chairman 
Smith and the Members of the overall Committee for moving us 
more in that very important direction. It was definitely the 
right time and we want to be very responsive. We completely 
agree that this is very, very important that the public 
understands the investment that this country is making in 
science and engineering and STEM education.
    We--so we--as of last May, we instituted some new 
practices, which--on transparency and accountability which 
focused on clarifying, communicating better the titles and the 
abstracts for proposals. Those two things were online for all 
proposals, and having a nontechnical description which would 
clearly say what the proposal's goals were about in clear 
English and also what is the potential impact of the research 
and how it serves the national interest.
    And so that was the order of the day as of last May. As you 
can imagine, this is a big change. We get over 50,000 proposes 
a year from which we select about 11,000, so it is a big, 
complicated engine that works on the whole merit review 
process. So we then instituted our practices into guidance, 
which came out at the same time as the OMB Uniform Guidance 
that--they come out together. We changed our manuals, which are 
both internal for program officers doing the overseeing of the 
review process and for--and another one for the external 
community so that they could see what the expectation was.
    And so the effective date of all these changes I would like 
to call January 1 of 2015 that we will really see a difference 
in what is being done and how it looks to the public and how 
they proposals are being reviewed.
    On top of that we have training, new kinds of training for 
the program officers and division directors that really do the 
bulk of the merit review process, and it is--basically it is a 
cultural change for the agency. And as you know, Representative 
Lipinski, culture change takes a while to take hold. And so--
but all the system directors who are sitting behind me are just 
firmly committed to this, each in their own disciplinary area, 
and I expect that we will see some real changes here.
    I also should add I sent a so-called important notice, 
which is sent very rarely--I have only sent out one as NSF 
Director so far--to all the university presidents letting them 
know of these changes and we have a website of course for 
further clarification. We have working groups internally. Every 
speech that I have made--I would say every speech that I have 
made for the last few months has included a description of our 
efforts in this regard.
    Mr. Lipinski. Thank you very much. I know as a former 
academic how tough cultural change is.
    I don't have much time but I want to throw this question 
out. SBE, the Social and Behavioral Science and Economics 
directorate, can you--Dr. Cordova, can you talk about how 
important that is to solving grand challenges that we have in 
health, energy, education, national security, cybersecurity, 
and so many other things?
    Dr. Cordova. So the social and behavioral economic sciences 
are incorporated--when I go around my university visits--and I 
just came back from visiting a few universities and research 
centers in the country--are incorporated into really everything 
we do and think about as scientists and engineers. So there are 
lots of centers, some of which have been funded by NSF, some by 
other agencies and some by the universities themselves, or all 
of them, and they invariably include social and behavioral and 
economic scientists now because they are trying to address some 
grand challenges that face our country and our world and they 
realize the importance of having the social and behavioral 
sciences there to inform.
    Let me just give you one example for Chairwoman Comstock 
that there is--and the Arizona State University there is a big 
bio-design center that embraces lots of particular kinds of 
research around that incorporates physics and biology and so 
on. They also have as an integral part of that a center called 
Nanoscience in Society which everyone goes through, all the 
other centers connect to, to evaluate if you are thinking of a 
new concept in nanotechnology or really any of the bio and 
physical sciences what could be the potential impact and what 
are the ethical and legal and kind of public considerations for 
how that technology could be used? And I was told that 
sometimes scientists just actually make a pause and head off 
maybe in a different direction based on being informed by 
social and behavioral economic scientists sitting at the table 
with them and looking at the potential impact of what they are 
developing in their new technological approaches.
    Chairwoman Comstock. Okay. I----
    Mr. Lipinski. Thank you. I thank the Chairwoman for 
indulging me there.
    Chairwoman Comstock. Great.
    And I now recognize Chairman Smith for questions.
    Chairman Smith. Thank you, Madam Chair.
    Dr. Cordova, let me say at the outset that that was 
wonderful to hear your three examples of breakthrough winners 
dealing with treating diseases and oil spills and the brain. 
And you quoted the individual I think who won the award for 
treating diseases as saying that there is a scientist in every 
child. That is a wonderful quote. I intend to plagiarize that 
in the future. But I think it does point to frankly the 
responsibility we all have and that is to make the study of 
science more interesting to young people. And that is the 
subject of another hearing, but that certainly should be a goal 
of ours in lots and lots of ways.
    Thank you, too, for mentioning the computer--the 
supercomputer at University of Texas. I only wish I became 
Chairman of the Committee a few years earlier so I could have 
taken more credit for that supercomputer. But they are pleased 
with it and it is doing a lot of good work.
    I would like to address my first couple of questions to you 
and ask about your policy, which I appreciate and which you 
mentioned a few minutes ago as well. And I just want to make 
sure that I understand the policy and see if you feel if the 
National Science Foundation policy is compatible and agreeable 
to the similar provision in the FIRST Act. I am not asking you 
to endorse the FIRST Act but just to focus on that provision as 
parallel.
    Dr. Cordova. Mr. Chairman, thank you for--and Mr. Lipinski 
for raising the important issue of greater transparency and 
accountability. Your legislative provision--I think it was 
Section 106 of the FIRST Act from the last Congress, which 
focuses on the national interest is very compatible with the 
new NSF internal guidelines and with the mission statement of 
NSF, which I quote ``to promote the progress of science to 
advance the national health, prosperity, and welfare and to 
secure the national defense.'' We share the same goals and 
believe that these policies--transparency, accountability, the 
national interest--are to be found in the 1950 law that created 
NSF and established our mission.
    And so we likewise thought it was important and appropriate 
to add the explicit reference the national interest in our 
revised guidelines.
    Chairman Smith. Okay. And you I assume then support the 
language we have in the FIRST Act that deals with that 
particular subject?
    Dr. Cordova. Yes, we do.
    Chairman Smith. Okay. Thank you.
    And, Dr. Arvizu, as Chairman of the Science Board, do you 
concur with that? I shouldn't ask you if you agree with Dr. 
Cordova because that is not fair but do you agree with the idea 
that the provisions in the FIRST Act that we are talking about 
and the NSF policy that Dr. Cordova has been promoting and 
when--we appreciate that--are compatible and similar and you 
support the language in the FIRST Act as well?
    Dr. Arvizu. Yeah. Thank you, Chairman Smith, for the 
questions and for asking our input on that.
    I think I can speak without reservation that my colleagues 
and I on the board--I support the goal that is clearly 
articulated in this section and we agree that awards that NSF 
makes need to be able to support the best ideas and fulfillment 
of the mission that was essentially just quoted by Dr. Cordova. 
And we like the whole quote, which includes ``and other 
purposes'' but I think the main thing to say here is that we 
concur with her assessment of the changes that are being made--
--
    Chairman Smith. Okay.
    Dr. Arvizu. --so I want to thank you for your leadership on 
that.
    Chairman Smith. And again, it goes below--it goes beyond 
agreement, you agree with our language as well and you support 
the language we have?
    Dr. Arvizu. I think, again, we will offer the opportunity 
to offer additional input to make and strengthen that but----
    Chairman Smith. Dr. Cordova said she agreed with the 
language. Don't you as well or----
    Dr. Arvizu. Well, we agree in principle that this is 
actually meeting the goals that we are trying to accomplish and 
I think it is probably best to wait until the language actually 
comes out, but I--with what I have seen so far, I think we can 
agree with that language.
    Chairman Smith. Okay. Thank you very much.
    I have two other questions. Let me come back to 
transparency and accountability because I want to ask you, Dr. 
Cordova, what you think needs to be done yet. But before I get 
there, you had a question a while ago about the SBE 
directorate. Do you consider the SBE directorate any more 
important than any other directorates? I mentioned in my 
opening statement that SBE got a seven percent increase. The 
others--Biology, Computer Science, Engineering, Mathematical, 
and Physical Science Directorates got less. Do you think SBE is 
there--more important than the other directorates? Why should 
it get a greater increase than the others if it should?
    Dr. Cordova. Well, Chairman Smith, those are two different 
questions.
    The reason why they have a bigger increase is in large part 
because of the funding--the increase in funding for the 
National Center for Science and Engineering Statistics, which 
is within SBE.
    Chairman Smith. If you take that out--what is the increase 
if you take that out?
    Dr. Cordova. Well, let me just ask Mr. Sievert behind me--
--
    Chairman Smith. Okay.
    Dr. Cordova. --what is the increase if we take out the 
Center because that center of course is the basis for the 
science and engineering indicators and the Congressional 
Research Service depends on----
    Chairman Smith. Okay. Well----
    Dr. Cordova. --the statistics----
    Chairman Smith. Well, that is being----
    Dr. Cordova. Sure. Thank you. Fine.
    Chairman Smith. --determined--if I can, let me just ask you 
to elaborate because I know you are doing some----
    Dr. Cordova. Right.
    Chairman Smith. --positive things in this regard and that 
is what remains to be done in the areas of transparency and 
accountability? I know you are making some changes and I didn't 
know if you wanted to elaborate on those or not.
    Dr. Cordova. I think improving communication is always 
important when you are making cultural change and so that 
people understand clearly what the expectations are. I think we 
will have a lot of work to do internally which we would like to 
share with the external proposing community on writing 
nontechnical descriptions of the research. This will be--this 
is kind of a new adventure for some, not for all, and so we--
rather than--as you know, the number of proposals has--over the 
last decade has increased tremendously and the number of FTE 
have not, so workload is a consideration so we will have to 
figure out and we are trying out new pilot programs and merit 
review, including virtual panels and all the rest of it to try 
to have the merit review process itself be efficient and 
effective. And this is all part of it is communicating how we 
do this work in that overall context.
    Chairman Smith. Thank you, Dr. Cordova. My time is way 
over.
    And do you have a quick percentage--and here comes the 
answer. You feel like you are--oh, not yet? Okay.
    Dr. Cordova. For the record. We will submit it for the 
record.
    Chairman Smith. Okay. We will look forward to getting that.
    Dr. Cordova. Okay.
    Chairman Smith. Thank you.
    Dr. Cordova. That is the answer.
    Chairman Smith. Thank you.
    And thank you, Madam Chair.
    Chairwoman Comstock. Thank you, Mr. Chairman.
    And I now recognize Mr. Tonko for his questions.
    Mr. Tonko. Thank you, Madam Chair, and welcome to all of 
our panelists. The information feed is awesome.
    I represent the capital region of New York, which has been 
dubbed by many to be one of the strongest hubs of growth--job 
growth in the clean energy innovation high tech economy. And 
with that we have great organizations like Rensselaer 
Polytechnic Institute and the corporate headquarters of GE with 
a lot of their innovation that they are incorporating, and the 
Polytechnic Institute. So my desire is to continue to build the 
foundations to further underpin that regional economy and 
certainly the Nation's economy with this growth that is so 
important.
    By the two agencies that you speak for today, I am really 
impressed by the work that you do. So my question is--my focus 
is on the National Network for Manufacturing Innovation, the 
NNMI effort. Dr. May, can you discuss the level of demand for 
additional institutes under NNMI and what area of focus do you 
envision for those future institutes?
    Dr. May. Well, there is a lot of pent-up demand. There is 
more than 135 needs that have been identified by NIST, and as I 
said earlier, there are eight institutes that have been stood 
up and they are mainly stood up to address the needs that were 
coherent with the needs of the Department of Defense and the 
Department of Energy.
    What are the specific needs that we address? Once we--when 
and if we have funding in '16, we will begin a process to 
winnow down those unmet needs and have plans to move forward 
and establish two institutes going forward and then begin 
processing those needs that we have, allowing additional input 
obviously to--and then set up a plan for setting up additional 
institutes in the out years.
    Mr. Tonko. Thank you. I am a solid advocate for additional 
funding for those innovative concepts. What--when making a 
selection for a new institute, what other factors are given 
consideration? Is it geography, for instance, taken into 
account or any prioritization for legacy cities that are 
transitioning from an older industrial reliance to perhaps a 
new day for--that comes via advanced manufacturing?
    Dr. May. Excuse the analogy but we are looking to pick the 
best horse and the best jockey.
    Mr. Tonko. Okay.
    Dr. May. We don't care where that horse and jockey comes 
from.
    Mr. Tonko. I represent Saratoga so I understand the 
language. I understand that language very well.
    Dr. May. So we expect to make merit-based decisions.
    Mr. Tonko. Okay. I appreciate that.
    And to Dr. Cordova, again, welcome. My district includes 
the Stratton Air National Guard Base, which hosts, as you know, 
the 109th Airlift Wing in Schenectady, and I am proud of the 
fact that this year we share the 27th year that the 109th 
Airlift Wing has been supported by the National Science 
Foundation's Antarctic program as part of Operation Deep 
Freeze.
    Over the past few months the Guard flew 241 missions 
delivering more than 3,000 passengers and 4.5 million pounds of 
cargo. Can you provide a brief update on NSF's polar research?
    Dr. Cordova. With respect to the 109th I can provide what 
the investment is for both Arctic and Antarctic, yes.
    Mr. Tonko. Okay. That is fine.
    Dr. Cordova. Yes. And then more globally, polar research, 
whatever your particular questions are, I would be happy to do 
that.
    So we have--the Arctic research, the expenditures for 2014 
were approximately $2.5 million and we expect to spend the same 
in 2015. Spending for the 109th for the Antarctic program were 
about $29 million in the last fiscal year. In this Fiscal Year 
they will increase to $31.5 million due to higher personnel and 
aircraft maintenance costs.
    And, by the way, Representative, we are pleased to be part 
of that cargo as well.
    Mr. Tonko. Thank you.
    Dr. Cordova. That is really a wonderful contribution to our 
overall program. We depend on the logistics of the Department 
of Defense.
    Mr. Tonko. And, further, do you see any future plans to 
modernize the polar program's aging equipment and aircraft?
    Dr. Cordova. We--I--since we get the aircraft support from 
a different agency, that is really a question I think that is 
appropriate for them. We are looking at substantial 
modernization program for the ground support, which of course 
services the aircraft, the landing bases and so on. And we are 
heavily engaged in preparing a modernization proposal for the 
coming fiscal years that is in response to the Blue Ribbon 
Committee known as the Augustine Committee. It is desperately 
needed after so many decades.
    Mr. Tonko. Thank you. I see my time is out. Just let me 
throw a thank you out there for a focus on STEM education. We 
are working via some legislation that I have authored that I 
hope will continue to bolster our efforts in STEM.
    And with that I thank you and yield back, Mr. Chair.
    Mr. Palmer. [Presiding.] Thank you, Mr. Tonko.
    I now recognize myself for five minutes for questions.
    Dr. Cordova, at one point the National Science Foundation 
had over $1 billion in expired grant money. Is that still the 
case?
    Dr. Cordova. I have no idea, Representative. Does--we will 
certainly supply that response for the record but--
    Mr. Palmer. Okay. Well, one of the reasons I ask is when 
you have--you are under a time limit, that that can create some 
incentives to fund projects that I would say the public would 
find questionable in terms of scientific research. For 
instance, I believe we funded a grant to study the gambling 
habits of monkeys at $171,000. You spent $856,000 on studying--
teaching lions to run on a treadmill and I am just wondering 
if--what the rationale would be for funding some of those 
projects because as a Member, we get some pretty intense 
criticism, particularly in such a tight budget environment that 
we are living in right now.
    Dr. Cordova. I understand the question. I don't know about 
those proposals. We can certainly get back to you on that 
detail. But this really goes to our discussion earlier, 
Representative, on the transparency and accountability, and we 
just have to be better at communicating what are the goals of 
research and what are the potential impacts because sometimes 
things that sound obscure can actually be just absolutely 
revolutionary and groundbreaking, as you know. The--I--we like 
to point out that the original proposal that turned into Google 
was called Backrub. Now, that would be something that would 
catch your eye, would it not? And--
    Mr. Palmer. And I would be interested.
    Dr. Cordova. Yes. So--but you see the point and that is why 
we really need good titles and nontechnical descriptions and 
that makes everybody stop and pause and say, yes, what are the 
goals and what could be the impact for society.
    Mr. Palmer. Thank you. Also, could you update us on your 
decision to relocate headquarters to Alexandria and explain 
some of the factors that are causing a delay in that move?
    Dr. Cordova. Yes, of course. So we will--we are in the 
process of moving to Alexandria. We should have the shell of 
the building all completed I am told by this fall and so our 
budget for the relocation effort includes some systems, IT 
systems, and some furniture consistent with having that all 
ready by Fiscal Year 2016.
    You--about the delay, we were told by GSA that they had 
accepted the proposal of Alexandria to move there and I believe 
that was in the summer of--before this summer in 2013 and then 
we reached an impasse with the union on what the--in particular 
the office space size would look like and that went to the 
Federal Impasse Panel in the late spring and we got the 
response in the fall on how that would settle out. And so we 
have been working with--we are following the guidance of the 
Federal Impasse Panel and actually I--they are--we are able 
to--because of the hard work of the team, a very talented team 
which I assure you is on this constantly, we are able to 
actually be cutting substantially the--in time delay the 
initial projections of how long this impasse would lead us to 
be delayed, Representative. And so----
    Mr. Palmer. Let me----
    Dr. Cordova. --this is--this situation is actually got 
worse and now is improving substantially and we are hoping to 
bring this is close to--as we possibly can----
    Mr. Palmer. So you asked for----
    Dr. Cordova. --by making compromises.
    Mr. Palmer. Let me throw this in----
    Dr. Cordova. Yeah.
    Mr. Palmer. --real quick. You asked for almost $31 million 
to----
    Dr. Cordova. Right.
    Mr. Palmer. --to fund the move. Does that include a 
potential cost as a result of the delays?
    Dr. Cordova. No, it doesn't because those would be in 
2017----
    Mr. Palmer. Okay.
    Dr. Cordova. --the delays.
    Mr. Palmer. Well, thank you all for being here. I am 
fascinated with the work you are doing, particularly the 
quantum-based information, Dr. May.
    My time is expired. I now yield to Ms. Esty.
    Ms. Esty. Thank you very much. I want to thank the Chairman 
and Ranking Member for today's hearing and to the three of you 
for the tremendous work you are doing every day and for being 
so informative for us and ensuring that our country maintains 
its position as the leader in research and development really 
for the world.
    Dr. Cordova, you had spoken about NSF's risk and resilience 
initiative so I want to hit two--your topics 3 and 4, risk and 
resilience and STEM education. So starting with the first one, 
living in Connecticut as I do and we are seeing the effects--
still seeing some of the effects from Superstorm Sandy and 
Hurricane Irene. We are acutely aware of the impact that it is 
having on our economy as we see more and more extreme weather 
events and we are seeing it again with subzero temperatures 
almost into March now. Could you speak a little bit further 
about what NSF's goals are in focusing on risk and resilience; 
and as a follow-up, as someone who serves on the Transportation 
Infrastructure Committee where we are also looking at these 
issues, can you let us know whether you will be working with 
other agencies, including particularly FEMA and Department of 
Transportation as part of these initiatives?
    Dr. Cordova. So risk and resilience is one of the four 
cross directorate initiatives that we are putting a focus on 
for the Fiscal Year 2016 budget just because of what you said, 
Representative Esty. It is a--we have been experiencing 
significant events that are natural, as well as human-made, but 
mostly natural events and we just feel that we have to put in 
an investment in basic research so that we can be prepared for 
those events.
    The Fiscal Year 2016 request includes $8.5 million for 
cross directorate program that is called Critical Resilience 
Interdependent Infrastructure Systems and Processes, so we call 
it CRISP for short. It further--it goes a step further than our 
other programs that enable research on earthquakes and winds to 
include being resilient to all kinds of hazards like tornadoes 
and storms and so forth. It focuses on multiple interconnected 
systems like electrical power, water, gas, roads, and 
communications. And as you know, we have to consider all of 
these as a system to be truly prepared and resilient.
    We do of course work with other agencies on this and I 
don't know the details about what their investments are but we 
could describe our particular programs and where they come into 
this, but this is something that concerns all the other 
agencies. I think our unique contributions are in a systems 
approach that brings in engineering as well as basic science 
and the social sciences, too, because as you know, you can be 
told that a tornado is coming but if you don't have the right 
social preparedness among agencies on the ground and the mayor 
and the police force and respond to crises appropriately, lives 
can still definitely be lost. And so to make us more resilient 
so we--because we embraced all of the sciences and engineering, 
we figured we can do a lot of basic work.
    And also in computer modeling, we have mentioned throughout 
this testimony that we have these big supercomputers, and those 
are really working very hard and I have gone to see the effort 
that they are doing on risk and resilience to really model the 
interactions of all the different components, you know, social 
and natural.
    Ms. Esty. Terrific. That is very helpful, and I am pleased 
to hear about that systems-wide approach, sort of an ecosystem 
of utilities, as well as transportation, critical 
infrastructure, which is also our schools and, you know, our 
core institutions.
    I was struck by your testimony and highly supportive to 
hear you quotes the ``there is a scientist in every child.'' So 
I wanted to give you an opportunity to expand a little bit on 
the INCLUDES initiative. I have been doing an enormous amount 
of work in my district on ensuring that every child, 
particularly that young women and children of color have an 
opportunity to get excellent STEM skills in each and every one 
of our schools and can see themselves as future engineers, 
scientists, researchers. So can you tell me a little bit about 
what you are doing, how you are collaborating with stakeholder 
communities? Thank you.
    Dr. Cordova. Thank you, Representative Esty. The--INCLUDES 
is something that is a very personal effort to me. In fact, I 
have nominated myself team captain for this effort. It is--we 
spend--just if you look at the Congressional Research Service 
report, we do make a great investment in what we call 
broadening participation, which is another way of looking at 
inclusion. We have focused programs, we have emphasis programs 
in different areas. But--and as we go around the country and I 
do make lots of on-the-ground looks at our efforts--we notice 
that they can be very brilliant in their local ecosystem but 
they--what we have learned from them and the best practices are 
often not communicated to other potential groups and 
communities that want to do similar work.
    So this emphasis and I think the small amount of money that 
we have requested here leverages that huge investment that we 
are already making, and this emphasis is on communication of 
those best practices, it is on networking. It is really almost 
a systems engineering approach and that is why the assistant 
directors that are all sitting in this room are--it is the goal 
that they are most excited about because they realize that who 
is sitting in the seats in our universities are the engineers 
of the future is--it should be a critical concern to us to tap 
into our national talent.
    So we are enthusiastic. We will embrace lots of 
communities. We believe that this is a whole community effort. 
It starts when you are born and ends when you leave us, and we 
want to take advantage of all the talent and excitement and 
interest around there and have different approaches to this 
challenge.
    Ms. Esty. Terrific. Thank you very much. And I see my time 
is way expired but we appreciate your commitment on all these 
issues. Thank you so much.
    Mr. Palmer. I now recognize Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    Dr. Cordova, welcome back to the Committee.
    Dr. Cordova. Oh, welcome back from Antarctica.
    Ms. Bonamici. Thank you. Great trip. Thank you. As you have 
heard today in this Committee and as you frequently hear, so 
much of what the NSF does is important to our country's future 
and there are so many important priorities in your budget. I am 
glad to see on behalf of my constituents in Oregon--I will name 
just a few that are important--clean energy technology, secure 
and trustworthy cyberspace. In fact at the state level we are 
working with our institutions of higher education and industry 
on a Center for Cyber Excellence. STEM education, thank you for 
your passion on that issue. As a member of the Education 
Committee, there is so much we could be doing. And then as you 
discussed with my colleague from Connecticut, Ms. Esty, risk 
and resilience. On the West Coast we have different issues from 
the issues they face in Connecticut. However, my constituents 
are very concerned of course about natural disasters being on 
the Cascadia subduction zone.
    But I wanted to ask you, Dr. Cordova, about a particular 
issue that currently the Oregon State University is leading an 
effort to design a regional class research vessel for NSF and 
will be operating the first of these new vessels that is built. 
We are very fortunate to have this opportunity in Oregon, not 
just for the university to have that experience of designing a 
vessel, but also for the potential of what we can learn through 
the observations made possible by this equipment.
    So I was a little concerned because there was a recent 
survey conducted by the National Academies that recommended 
some reduced funding for operations within the Ocean Sciences 
facilities budget, so can you give us an idea on how a 
rebalancing of funding within OCE might influence plans to 
continue development of this new vessel?
    Dr. Cordova. Thank you, Representative Bonamici. And let me 
just first say that I am just so impressed by your method as a 
Congresswoman. When we were on the Antarctica trip you were so 
committed to the students in your region that you were 
constantly doing very special videos and a whole series to 
bring back to the classroom, and you are a role model so----
    Ms. Bonamici. Thank you. And I just went out to the school 
and did a presentation before I came back to D.C. and they were 
thrilled.
    Dr. Cordova. So on the regional class research vessels, so 
you are right. This is an opportunity, and ocean observing and 
understanding 70 percent of the planet and what is in there and 
how it functions with, you know, the whole world system is 
incredibly important research.
    So there is intense study at NSF on how many regional class 
research vessels are needed and appropriate for the future. We 
completed the preliminary design review for this program in 
August of 2014 and we presented it as an information item at 
the February National Science Board meeting, and it is being 
considered right now for presentation as an action item at the 
May National Science Board meeting and then the next step would 
be if it were put in front of the NSB to request approval for 
the advancement to final design phase and inclusion in a future 
budget request.
    Now, you mentioned the decadal panel. Okay. So that is--
then the decadal panel, as you know, just came to us at the end 
of January and so that--an initial preliminary report was made 
to the board. It has not been fully digested by the agency. As 
you know, we are a very thinking agency----
    Ms. Bonamici. Right.
    Dr. Cordova. --and we study things very closely and all the 
potential impacts and we always--we like to say we set our 
priorities based on community input. And so here, as you have 
pointed out, Representative Bonamici, there are lots of 
different kinds of input so that is being assessed and we will 
make a decision.
    Ms. Bonamici. Terrific. That sounds promising and I look 
forward to keeping in touch on that.
    I wanted to get into questions for Dr. May. Thank you for 
your testimony. I look forward to having you visit the 
Collaborative Life Sciences Building at Oregon Health and 
Science University. We are doing some great work out there. Our 
Life Sciences Building is a great partnership between OHSU, 
Oregon State, and Portland State to expand the research 
activities and really offer a new approach to healthcare 
education, so I look forward to your visit.
    The Manufacturing Extension Partnership program has really 
done a lot of good in Oregon leveraging federal funds in 
conjunction with state and local funding support. I wanted you 
to address of course the importance of growing American 
manufacturing. How can this budget proposal support a renewed 
focus on American manufacturing, especially through the MEP 
program?
    Dr. May. Well, certainly the MEP program is a program that 
is currently authorized that reaches down and touches small and 
midsized manufacturers. Right now, we are undergoing a 
reshuffling of the deck if you will in the MEP program to try 
to do a better job of rightsizing the funding for the 
individual centers to the manufacturing ecosystem that they sit 
in. Initially for the--most of the MEP grants were made more 
than ten years ago. The world has changed a lot in the last ten 
years so we are right now trying to--we have just completed the 
re-competition for 10 centers. We will do an additional at 
least 10 States. We will do an additional 12 this year to try 
to make sure we can make sure that the federal contribution to 
the state is congruent with the needs of that particular 
manufacturing community.
    Ms. Bonamici. It is a very important program. I have seen 
it working on the ground at some of our businesses so thank you 
for your work on that.
    My time is expired. Thank you, Mr. Chairman.
    Mr. Palmer. I now recognize Ms. Clark.
    Ms. Clark. Thank you, Mr. Chairman. And thank you to all 
the panelists for being here today.
    I am extremely lucky to represent the 5th District of 
Massachusetts, which is really a center of life sciences, 
biotech, and it is not only an economic engine for 
Massachusetts and for the country but it is also, as I--a very 
personal effect on the research that you do and sponsor. As I 
heard one dad say, a rare disease is only rare until it affects 
your child. And the difference is that you are making not only 
in jobs and the economy in Massachusetts and across this 
country but also in the real effect on people's lives.
    And people do not come to my district for the weather. In 
fact, when Dr. Cordova was welcoming back my colleague from 
Antarctica, I thought you had mixed us up.
    But I am concerned. They come to Boston because we have 
incredible universities and we have incredible institutions 
doing research. That is why they come and that is why keeping 
that innovation pipeline is so critical. But there is cynicism 
and there is criticism of much of the work that you are doing. 
And so I am very interested if any of you can tell me a little 
bit more about the STAR METRICS program and how you are 
proceeding in being able to put real dollars and really track 
the impact of the investment and research that is going 
forward.
    Dr. Cordova. Should I start?
    Ms. Clark. Sure.
    Dr. Cordova. All right. Thank you very much. And actually 
my first experience as a graduate student, my first field trip 
from California was to one of your great institutions to the 
Harvard Smithsonian Astrophysical Observatory to do some 
research--satellite research.
    So NSF really cares about the evaluation of its programs, 
especially in the STEM area that you are referring to. We lead 
the STAR METRICS, and STAR stands for Science and Technology 
for America's Reinvestment Measuring the Effects of Research on 
Innovation, Competitiveness, and Science. It is federal and 
research institution collaboration, as you know, Representative 
Clark, to create a repository of data and tools that would be 
useful to assess the impact of federal R&D investments. So we 
are very heavily engaged in that.
    In addition, our Directorate of Education, Human Resources 
invests in foundational research and evaluation through a 
program we call PRIME, which stands for Promoting Research and 
Innovation in Methodologies for Evaluation program. It 
encourages the community to develop new evaluation 
methodologies, adapt methods that are successful in other 
disciplines, and expand the workforce with the capacity to 
conduct evaluation. In addition, we have an evaluation and 
monitoring group, which has a five-year evaluation monitoring 
plan for everything we do.
    So we do take evaluation and educational research very 
seriously. In fact, when you see the 11 percent increase in the 
EHR, Education Human Resource Directorate, it is mainly for an 
increase in undergraduate education and in what you are talking 
about in educational research, which includes evaluation and 
monitoring.
    Ms. Clark. Thank you very much.
    And, Dr. May, back to our historic snowfall, I wonder if 
you could discuss the progress around the disaster resilience 
framework that NIST is developing and other efforts that might 
be underway around disaster resilience.
    Dr. May. I would say that--well, NIST is not operating by 
itself in this space----
    Mr. Palmer. Dr. May, will you hit your button please?
    Dr. May. I apologize. We don't operate alone in this space. 
I mean you have heard some of the things that NSF does. Even 
within the Department of Commerce there are equities when--in 
NOAA----
    Ms. Clark. Yeah.
    Dr. May. --since they predict the weather and they look at 
the coastal environment, the Economic Development Agency, the 
Minority Business Development Agency, so we are all working 
together. But the unique thing that NIST does is sort of looks 
at what our science and engineering investigations can do to 
influence regulations and codes that might support the built 
environment. And speaking to recent activities in your area of 
the country, we have not dispatched a team there yet because 
one of the guidelines we have is that there is some new 
occurrence where we can glean things, so we don't go out like 
FEMA anytime there is an emergency. Our engagements are highly 
measured.
    But certainly what will happen and would happen is we would 
look at what changes are there in the climate or whatever that 
would warrant scientific investigations that might need to have 
changes in the building codes and so forth to better protect 
the built environment.
    Ms. Clark. Great. Thank you.
    I see my time is expired. Thank you, Mr. Chairman.
    Mr. Palmer. Without objection, I recognize Ranking Member 
Lipinski for one minute.
    Mr. Lipinski. Thank you very much.
    I know we have a hard stop so we can't ask any more 
questions. I just wanted to thank you all for being here. One 
thing I was going to address but we talked about I-Corps. I am 
glad--very happy to see the strong support, strong number for 
I-Corps in the budget. I have been--everyone knows I have been 
the biggest supporter of that and it is great to see that it is 
very successful.
    And, Dr. May, I am going to submit a question for the 
record about NIST activities concerning spectrum sharing also, 
but thank you all again very much and thank you, Mr. Chairman.
    Mr. Palmer. Thank you, Mr. Lipinski.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. The record will remain open for 
two weeks for additional comments and written questions from 
the Members. The witnesses are excused and this hearing is 
adjourned.
    [Whereupon, at 12:30 p.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              
                  
                   Answers to Post-Hearing Questions
Responses by The Honorable France Cordova
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Responses by The Honorable Daniel Arvizu
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Willie E. May
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
